HHS/OIG Audit:"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid Prescription Drug Program of the Texas Health and Human Services Commission,"(A-06-01-00001)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Pharmacy Acquisition Costs for Drugs Reimbursed Under the Medicaid
Prescription Drug Program of the Texas Health and Human Services Commission," (A-06-01-00001)
November 30, 2001
Complete
Text of Report is available in PDF format (892 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Most States use average wholesale price (AWP) minus a percentage discount, which
varies by State, as a basis for reimbursing pharmacies for drug prescriptions.  Therefore,
the objective of this review was to develop for the Texas Medicaid program an estimate
of the discount below AWP at which pharmacies purchase brand name and generic drugs.  In
Texas, our estimate of the overall discount below AWP for the invoice prices reviewed
was 22.17 percent for brand name drugs and 62.84 percent for generic drugs.  Our
national estimates, included in reports previously issued, were 21.84 percent and
65.93 percent, respectively.  We recommended that the Texas Health and Human
Services Commission consider the results of this review as a factor in any future
changes to pharmacy reimbursement for Medicaid drugs.  The State Agency stated
that they planned to use the data along with their own invoice survey in determining
changes to pharmacy reimbursement.